        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Preliminary Audit Report
Management Controls over the
Commonwealth of Virginia's Efforts
to Implement the American
Recovery and Reinvestment Act
Weatherization Assistance Program




OAS-RA-10-11                          May 2010
                                 Department of Energy
                                    Washington, DC 20585
                                          May 26, 2010


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND
               RENEWABLE ENERGY


FROM:                    George W. Collard
                         Assistant Inspector General
                            for National Security and Energy Audits
                         Office of Inspector General

SUBJECT:                 INFORMATION: Preliminary Audit Report on "Management Controls
                         over the Commonwealth of Virginia's Efforts to Implement the
                         American Recovery and Reinvestment Act Weatherization Assistance
                         Program"

BACKGROUND

The Department of Energy's (Department) Weatherization Assistance Program received $5 billion
under the American Recovery and Reinvestment Act of 2009 (Recovery Act) to improve the
energy efficiency of homes, multi-family rental units and mobile homes owned or occupied by
low-income persons. Subsequently, the Department awarded a three-year Weatherization
Assistance Program grant for $94 million to the Commonwealth of Virginia (Virginia). This
grant provided more than a ten-fold increase in funds available to Virginia for weatherization over
that authorized in Fiscal Year (FY) 2009. Corresponding to the increase in funding, the Recovery
Act increased the limit on the average amount spent to weatherize a home (unit) from $2,500 to
$6,500.

Virginia's Department of Housing and Community Development (DHCD) administers the
Recovery Act grant through 22 local community action agencies. These agencies (sub-grantees)
are responsible for determining applicant eligibility, weatherizing homes, and conducting home
assessments and inspections. Typical weatherization services include installing insulation;
sealing ducts; tuning and repairing furnaces; and, mitigating heat loss through windows, doors
and other infiltration points. Virginia plans to use its Recovery Act Weatherization funding to
weatherize about 9,193 units over the life of the grant – a significant increase over the 1,475
housing units that were planned to be completed in FY 2009. Given the significant increase in
funding and the demands associated with weatherizing thousands of homes, we initiated this
audit to determine if Virginia had adequate safeguards in place to ensure that the Weatherization
Program was managed efficiently and effectively.

CONCLUSIONS AND OBSERVATIONS

The State of Virginia's DHCD had not implemented financial and reporting controls needed to
ensure Weatherization Program funds are spent effectively and efficiently. Specifically, DHCD
had not:

       Performed on-site financial monitoring of any of its sub-grantees under the Recovery
       Act;
       Reviewed documentation supporting sub-grantee requests for reimbursements to verify
       the accuracy of amounts charged;

       Periodically reconciled amounts paid to sub-grantees to the actual cost to weatherize
       units;

       Maintained vehicle and equipment inventories as required by Federal regulations and
       state and Federal program directives; and,

       Accurately reported Weatherization Program results to the Department.

Exacerbating weaknesses in DHCD's financial controls, the Department's most recent program
monitoring visit to Virginia, made in 2008 before passage of the Recovery Act, did not include a
required financial review. Hence, the financial control weaknesses discussed above were not
detected and had not been addressed. As described in this report, these control and reporting
weaknesses increase the risk that Recovery Act objectives may not be achieved and that fraud,
waste or abuse can occur and not be detected in this critically important program.

                                        Financial Controls

Despite the increase in funding, DHCD had not made any on-site financial monitoring visits to its
22 sub-grantees under the Recovery Act. In fact, Virginia had not conducted financial monitoring
in the past 18 months. Virginia's Recovery Act and prior year Weatherization Program State
Plans, as approved by the Department, required DHCD to conduct on-site monitoring visits at
least annually to sub-grantees to review, among other things, their financial activities. Such on-
site visits are especially important to verify the accuracy of sub-grantee costs, since DHCD does
not require sub-grantees to provide supporting documentation when they submit their requests for
reimbursement of costs incurred to weatherize homes. Using the sub-grantee data, DHCD creates
sub-grantee invoices that are processed for payment. Because of the lack of supporting
documentation and inadequate financial monitoring, the accuracy of DHCD's payments to sub-
grantees could not be verified. As result of our review, Virginia officials informed us that they
are now requiring sub-grantees to submit supporting documentation with their requests for
reimbursement. We plan to follow-up on these claims when we conduct test work at the
community action agency level.

In addition to the lack of documentation supporting claims, DHCD allowed sub-grantees to
submit invoices for reimbursement based on their average cost to weatherize units. However,
DHCD had not performed periodic reconciliations of actual costs to the average amounts
claimed by sub-grantees. Given the anticipated increase in the volume of Recovery Act
transactions, such reconciliations will be especially important to ensure that the amount paid to
sub-grantees, based on an average cost per unit estimate, accurately reflects the sub-grantees
actual cost to weatherize units. Further, the reconciliations will help Virginia ensure that sub-
grantees do not exceed the $6,500 limit on the average cost to weatherize a unit.

Finally, DHCD had not maintained vehicle and equipment inventories as required by the
Department, Virginia's weatherization program guidance, and Federal regulations. According to
Federal regulations and Weatherization Program requirements, vehicles and equipment

                                                 2
purchased with Federal funds that cost more than $5,000 must be recorded and reported as
Program assets. Despite these requirements, no inventory information existed. In the absence of
such information, we requested that the Department and DCHD use their procurement systems to
identify vehicles and equipment that met the $5,000 threshold, and we were subsequently
provided with a list of such items. We contacted one sub-grantee and determined that the list
was incomplete. We ultimately identified two vehicles and a piece of equipment valued at over
$88,000, in total, that neither DHCD nor the Department were aware of.

The absence of inventory records hinders the ability of the Department and Virginia to determine
whether sub-grantee requests for purchases of additional equipment and vehicles are reasonable
and allowable and to determine whether disposal of such equipment is in accordance with
Federal regulations. Under the Weatherization Program, vehicles and equipment must either
continue to be used for weatherization efforts or be made available to other organizations,
subject to Department approval. The risk that assets will not be properly safeguarded increases
significantly in the absence of records.

                                           Reporting

The number of weatherized homes DHCD reported to the Department differed significantly from
the number of homes reported by sub-grantees. DHCD's quarterly report to the Department
indicated that 316 homes had been weatherized during the period July 1, 2009, through
September 30, 2009. In contrast, DHCD's sub-grantee reporting database showed that sub-
grantees had submitted data indicating that 978 homes had been weatherized during the same
reporting period.

Reporting weaknesses resulted from untimely sub-grantee reporting, a lack of reconciliation of
databases, and DHCD's inability to automatically update information provided to the
Department. The Department requires grantees to report weatherization information 30 days
after the end of each quarter. To meet the deadline, DHCD requires sub-grantees to report
weatherization information 10 days after the end of the quarter. For the period July 1, 2009,
through September 30, 2009, 10 of 22 sub-grantees missed the DHCD reporting deadline of
October 10, 2009. Given the late filings, DHCD officials told us that they decided to use
disbursement records as a basis for reporting the number of weatherized homes. Subsequent
sub-grantee reports, however, identified the previously mentioned 978 units as having been
completed by September 30, 2009. DHCD had not reconciled production numbers reported by
sub-grantees to the numbers extracted from disbursement records. Further, DHCD had not
provided the updated information to the Department because it did not have on-line access to the
Department's systems.

Accurate quarterly reporting is especially important since, at the time of our review, DHCD did
not have the technical capability to remotely access the database used by the Department to
maintain up-to-date records on the number of homes weatherized with Recovery Act funds.
DHCD had physically relocated and had failed to set up modem access to the Department's
systems. As a result, DHCD made a one-time quarterly submission to the Department and did
not update its production records until the end of the next reporting quarter. DHCD officials
reported that access issues have been resolved.



                                               3
                                            Resources

The weaknesses we identified were, in large part, attributable to insufficient staffing and a lack
of adequate reporting systems. At the time of our review, DHCD only had one full-time person
assigned to the Weatherization Assistance Program. Although this individual was supported by
part-time administrative staff assigned to other economic development programs, and a part-time
technical monitor, no financial monitor was assigned to the Weatherization Program effort.
Lacking a financial monitor, DHCD was unable to evaluate the accuracy of sub-grantee invoices
and ensure that financial controls were in place at the sub-grantee level. DHCD recognized
staffing deficiencies and planned to hire five additional staff – including a full-time financial
monitor. However, Virginia's state-wide budget crisis resulted in delayed implementation of the
DHCD hiring plan. The hiring plan was not approved by the Governor until September 2009.
Since that time, officials report that DHCD has hired five additional staff, including a full-time
financial monitor.

DHCD also did not have the reporting systems needed to handle the significant demands of the
Recovery Act. Program officials noted that Virginia's sub-grantee reporting database was out-
dated and that it did not have the capability to report the level of detail needed to comply with
Recovery Act reporting requirements. To its credit, DHCD plans to purchase a new web-based
system to improve its ability to report cost and production information.

Finally, Department officials reported that limited staff and competing demands had an impact
on the extensiveness of Federal monitoring efforts. The Department also intends to increase the
number of project officers it has on board to oversee the Weatherization Program so that the
frequency and quality of on-site monitoring can be improved.

RECOMMENDATIONS

To achieve the objectives of the Recovery Act, it is important that the Department and Virginia
have effective financial and reporting controls. Virginia has the opportunity to improve the
health and safety of low-income citizens as well as significantly reduce their energy
consumption. Unless the weaknesses identified in this report are addressed, the risk of failing to
achieve Recovery Act goals, along with the risks of fraud, waste and abuse, will increase.

To ensure the success of the Weatherization Assistance Program, we recommend that the
Department's Assistant Secretary for Energy Efficiency and Renewable Energy (EERE) ensure
that:

    1. Virginia establishes financial and reporting controls, including:

           a. Conducting on-site monitoring of sub-grantee financial activities as required by
              its approved Weatherization Program State Plan;

           b. Reviewing prior sub-grantee billings and seeking reimbursement for any amounts
              erroneously charged;

           c. Periodically reconciling the amount of funds invoiced and reimbursed to sub-
              grantee's actual costs;
                                              4
           d. Maintaining inventories of vehicles and equipment; and,

           e. Correcting identified production reporting weaknesses.

    2. Federal project officers responsible for monitoring grantees include financial reviews and
       evaluations of reporting capability in their on-site monitoring visits.

In addition to our work at DHCD, we also plan to evaluate the sufficiency of internal controls at
a sample of Virginia's community action agencies. Because of the importance of improving the
effectiveness of the Weatherization Program, we are issuing this preliminary report discussing
the adequacy of Virginia's controls over Recovery Act funds used to weatherize housing units.
Our final report will be issued upon completion of work at Virginia's community action agencies.

MANAGEMENT COMMENTS

The Department's Office of Energy Efficiency and Renewable Energy provided a response to our
report that included planned actions to address our recommendations. Specifically, management
indicated it will take action to assist Virginia in correcting weaknesses in its financial and
reporting controls. Management noted that it will update its monitoring procedures to address
the issues and recommendations contained in this report.

EERE's response and planned corrective actions are responsive to our recommendations.
Management's comments are provided in their entirety in Attachment 2.

Attachments

cc: Deputy Secretary
    Under Secretary of Energy
    Chief of Staff
    Director, Office of Risk Management
    Team Leader, Office of Risk Management, CF-80
    Audit Resolution Specialist, Office of Risk Management, CF-80
    Audit Liaison, Office of Energy Efficiency and Renewable Energy, EE-3A
    Audit Liaison, Golden Field Office
    Audit Liaison, National Energy Technology Laboratory




                                               5
                                                                                     Attachment 1


                       OBJECTIVE, SCOPE, AND METHODOLOGY


OBJECTIVE

The objective of this audit was to determine whether the Commonwealth of Virginia (Virginia)
can provide assurance that the goals of Weatherization Assistance Program, as stated in the
American Recovery and Reinvestment Act of 2009 (Recovery Act), will be met and
accomplished efficiently and effectively.

SCOPE

This interim report contains the results of an audit performed between July 2009 and March 2010
at Department of Energy (Department) Headquarters in Washington, D.C., and the National
Energy Technology Laboratory (NETL) in Pittsburgh, Pennsylvania. We also performed audit
work at Virginia's Department of Housing and Community Development in Richmond, Virginia.
We made site visits to two community action agencies located in Richmond and Charlottesville,
Virginia, and visited a home while weatherization work was being performed.

METHODOLOGY

To accomplish the audit objective, we:

       Reviewed applicable laws, regulations, and guidance pertaining to the Weatherization
       Assistance Program under the Recovery Act; as well as laws, regulations and guidance
       applicable to Virginia's Weatherization Program;

       Held discussions with Energy Efficiency and Renewable Energy, NETL and Virginia
       officials to discuss current and ongoing efforts to implement the requirements of
       Weatherization Assistance Program under the Recovery Act; and,

       Reviewed Community Action Agency financial information and reports from Virginia's
       Weatherization Program to determine the accuracy of the number of homes weatherized.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our finding and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective. Because our review was limited, it
would not necessarily have disclosed all internal control deficiencies that may have existed at the
time of our audit. We considered the establishment of Recovery Act performance measures,
which included certain aspects of compliance with the Government Performance and Results Act
of 1993, as necessary to accomplish the objective. We conducted a limited reliability assessment
of computer-processed data and we deemed the data to be sufficiently reliable to achieve our
audit objective.

We held an exit conference with Department officials on May 26, 2010.

                                                 6
    Attachment 2




7
    Attachment 2 (continued)




8
                                                                 IG Report No. OAS-RA-10-11

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
